Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 The Globalization of Clinical Trials


A Growing Challenge in Protecting Human Subjects




                         JANET REHNQUIST
                           Inspector General

                           SEPTEMBER 2001
                            OEI-01-00-00190
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General.
Principal OEI staff included:

BOSTON                                                    HEADQUARTERS

Steven P. Keenan, Program Analyst                         Genevieve Nowolinski, Program Specialist

Aimee K. Golbitz, Program Analyst

China D. Eng, Program Analyst

Nancy L. London, Program Analyst





          To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
            Reports are also available on the World Wide Web at our home page address:

                                          http://oig.hhs.gov/oei
                            EXECUTIVE                         SUMMARY

PURPOSE

           To document the growth of non-U.S. clinical drug trials contributing data to New Drug
           Applications for Food and Drug Administration (FDA) approval, and to assess FDA’s capacity
           to assure human subject protections in these trials.

BACKGROUND

           In our June 2000 report, Recruiting Human Subjects: Pressures in Industry-Sponsored
           Clinical Research (OEI-01-97-00195), we drew attention to the fact that clinical drug trials
           conducted outside the U.S. can be an important source of data in FDA’s determination of the
           safety and efficacy of new drugs. Pharmaceutical companies submit trial data to FDA as part
           of a New Drug Application, the application for FDA approval to market a drug in the U.S.
           Although the majority of foreign clinical drug research that is submitted in New Drug
           Applications is still conducted in countries with a history of clinical drug research, increasingly,
           countries with less experience are emerging as desirable locations for sponsors to conduct this
           research.

           In conducting this inquiry, we analyzed two FDA databases: one of clinical investigators
           conducting drug research and one of clinical investigators conducting drug research who have
           been inspected by FDA. We interviewed FDA officials and industry representatives. We also
           reviewed pertinent FDA documents and related literature.

FINDINGS

FDA oversees significantly more foreign research than it did 10 years ago.

           The number of foreign clinical investigators conducting drug research under Investigational New
           Drug Applications increased 16-fold in the past decade. In 1990, 271 of these foreign clinical
           investigators were in FDA’s database. By 1999 the number grew to 4,458. FDA inspections
           of foreign clinical investigators conducting drug research have also increased dramatically, from
           just 22 in 1990 to 64 in 1999.

Sponsors have expanded research sites into many countries that appear to have
limited experience in clinical trials.

           The number of countries in which clinical investigators conduct drug research that is tracked by
           FDA increased from 28 in 1990 to 79 in 1999. Among the countries that have experienced the
           largest growth in clinical investigators are Russia and countries in Eastern Europe and Latin
           America. Sponsors explain this growth by pointing to readily

The Globalization of Clinical Trials                     i                                OEI-01-00-00190
           accessible human subjects, potential new markets for approved drugs, and recent international
           agreements that ease FDA acceptance of foreign research data. Contract research
           organizations are also moving into these areas. FDA is also beginning to inspect investigators in
           areas where FDA-regulated research has not previously been conducted.

FDA cannot assure the same level of human subject protections in foreign trials
as domestic ones.

           FDA receives minimal information on the performance of foreign institutional review boards. It
           does not inspect these boards, nor does it tend to receive much information from the host
           countries of these boards. It cannot necessarily depend on foreign investigators signing
           attestations that they will uphold human subject protections. It has an inadequate database on
           the people and entities involved in foreign research.

Key entities overseeing or studying foreign research have raised concerns about
some foreign institutional review boards.

           The pharmaceutical industry, national regulatory agencies, the National Bioethics Advisory
           Commission, and the World Health Organization have all raised concerns about some of the
           institutional review boards that review research at foreign sites. Their concerns tend to focus on
           the boards’ lack of experience and insufficient monitoring practices.

RECOMMENDATIONS

           The purpose of these recommendations is to help ensure that the protections provided for
           foreign clinical drug research are at least equivalent to U.S. regulations, not to discourage the
           submission of non-U.S. data. We direct most of our recommendations to FDA, since it has the
           jurisdiction for the commercially funded research that was the focus of our inquiry. We also
           make recommendations to the Office for Human Research Protections, which is in a prime
           position to foster integrated approaches to protecting human subjects across Federal agencies.

           We recognize that FDA has taken many important steps in strengthening human subject
           protections despite the difficulties of limited resources and limited information about foreign
           research. In recommending an increase in human subject protection efforts, we also
           acknowledge that all efforts in this area must be respectful of the sovereignty of other countries
           and compatible with harmonization efforts. Furthermore, we recognize that some of our
           recommendations may require additional resources.

We recommend that FDA:

           Obtain more information about the performance of foreign institutional
           review boards. By working with the regulatory authorities in foreign countries to




The Globalization of Clinical Trials                    ii                              OEI-01-00-00190
           obtain information about the practices of local institutional review boards, or more directly by
           assisting in inspections, FDA can address its lack of information about the adequacy of foreign
           institutional review boards’ review of human subject protection issues in clinical research
           submitted in New Drug Applications.

           Help foreign boards build capacity. By working with the Office for Human Research
           Protections, the National Institutes of Health, and others, FDA can help newly established
           foreign review boards conduct effective human subject reviews.

           Encourage sponsors to obtain attestations from foreign investigators. By
           encouraging attestations from non-U.S. investigators stating that they will adhere to ethically
           sound principles of research, FDA can promote adherence to ethical guidelines. Foreign
           investigators working under an Investigational New Drug Application should sign attestations,
           as Investigational New Drug Application regulations require. Similarly, foreign investigators
           working under other research guidelines could be encouraged to sign a statement of their
           intention to comply with the guidelines they follow.

           Encourage greater sponsor monitoring. By encouraging more rigorous monitoring of
           foreign research sites by sponsors and their agents, FDA can reinforce their responsibility to
           ensure human subject protections. FDA can work with sponsors to achieve a clearer mutual
           understanding of the roles they can play in that regard.

           Develop a database to track the growth and location of foreign research.
           Given the significant growth occurring in non-U.S. research submitted as part of New Drug
           Applications, it is important for purposes of oversight and resource allocation that FDA have
           more and better information about key elements of that growth.

Finally, we recommend that the Office for Human Research Protections:

           Exert leadership. By developing strategies to ensure that adequate human subject
           protections are afforded for non-U.S. clinical trials that are funded by the Federal government
           and/or that contribute data in support of a New Drug Application, the Office for Human
           Research Protections can exert leadership. It is already moving in this direction. In its
           leadership role, it can foster integrated approaches that would apply across Federal agencies
           and to federally funded and New Drug Application research conducted at non-U.S. sites.

           Encourage accreditation. Encouraging participation of institutional review boards in a
           voluntary accreditation system is one way to improve the capacity to conduct appropriate
           reviews of human subject protections in proposed research. The Office for Human Research
           Protections, working with FDA, NIH, and others, can help develop such a system
           internationally.




The Globalization of Clinical Trials                   iii                             OEI-01-00-00190
COMMENTS ON THE DRAFT REPORT

           Within the Department of Health and Human Services, we received comments from the FDA
           and the Office for Human Research Protections (OHRP). The OHRP concurred with the two
           recommendations we directed to it and stressed its readiness to engage in the kind of leadership
           we called for. The FDA supported all of our recommendations except for the one calling for
           better data collection on foreign research. It indicated that the purpose and methods we
           presented concerning the recommendation were not sufficiently clear. In this final report, we
           modified the recommendation to more clearly define the goal for FDA to develop a database to
           track the location and growth of foreign research. Such a data base, we suggest, can be helpful
           in guiding FDA oversight and setting priorities. We also suggested one way to begin gathering
           such data as well as a broader strategy for the future.

           FDA emphasized its lack of resources and its limited authority in foreign countries as constraints
           in carrying out the remaining recommendations. While we agree that these are limiting factors,
           we believe the FDA can use its technical expertise, its influence as the approving authority for
           drugs marketed in the U.S., and its prestige and experience in international circles to promote
           reforms even in foreign countries.

           External to the Department, we solicited comments from the Pharmaceutical Research and
           Manufacturers of America (PhRMA), Public Citizen Health Research Group, Public
           Responsibility in Medicine and Research (PRIM&R), and Applied Research Ethics National
           Association (ARENA). The following is a summary of the comments we received: PRIM&R
           and ARENA urged FDA “require” not as we suggested “encourage” investigator attestations
           for foreign research used in support of New Dug Applications. But in general the two
           organizations supported our recommendations. Public Citizen was more critical, indicating that
           our recommendations were not strong enough in light of the problems we identified. The
           comments of these organizations warrant consideration and reinforce our central concern: that
           FDA cannot assure the same level of protections in foreign trials as domestic ones.




The Globalization of Clinical Trials                   iv                              OEI-01-00-00190
                            TABLE                          OF             CONTENTS


                                                                                                                                      PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



PRIMER ON FDA REGULATION OF FOREIGN DRUG RESEARCH . . . . . . . . . . . . . . . 5



FINDINGS

           Significant Increase in Foreign Research . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


           Research Sites With Limited Experience . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


           FDA Limitations in Assuring Protections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


           Key Entities Raise Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



APPENDICES

           A: Foreign Investigator Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


           B: International Research Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


           C: Clinical Investigator Attestation Commitments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


           D: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


           E: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43



The Globalization of Clinical Trials                                                                               OEI-01-00-00190
                                       INTRODUCTION

PURPOSE

           To document the growth of non-U.S. clinical drug trials contributing data to New Drug
           Applications for Food and Drug Administration (FDA) approval, and to assess FDA’s capacity
           to assure human subject protections in these trials.

BACKGROUND

           In our June 2000 report, Recruiting Human Subjects: Pressures in Industry-Sponsored
           Clinical Research (OEI-01-97-00195), we drew attention to the fact that clinical drug trials
           conducted outside the United States can be an important source of data in FDA’s
           determination of the safety and effectiveness of new drugs. Pharmaceutical companies
           conducting these trials submit data to FDA as part of a New Drug Application, the application
           for FDA approval to market a drug in the U.S. for specified use(s).1 Although the majority of
           foreign clinical drug research that is submitted in New Drug Applications is still conducted in
           countries with a history of clinical drug research, increasingly, countries in Eastern Europe, Latin
           America, and East Asia are emerging as desirable locations for sponsors to conduct this
           research.

           In this report we seek to determine the extent to which this overseas research has been
           increasing and to assess FDA’s oversight of such research as it relates to human subject
           protections. The importance of such oversight is underscored by a December 2000
           Washington Post series focusing on the adequacy of protections afforded in international
           clinical drug trials.2

FDA Oversight of New Drug Research

           This report refers often to two applications that FDA uses to oversee and evaluate new drug
           research. The first application is the Investigational New Drug Application (IND). Sponsors of
           drug research submit an IND to FDA prior to the start of research that will be conducted under
           FDA regulations. The second application is the New Drug Application (NDA). After research
           is complete, sponsors submit an NDA to obtain FDA approval to market a new drug.

           FDA approves an NDA after determining that a drug is safe and effective for its intended
           use(s). The application contains the clinical and other data FDA needs to evaluate risks and
           benefits. The drug sponsor, usually a pharmaceutical company, demonstrates that a drug is safe
           and effective by conducting clinical trials on human subjects. A sponsor must test a drug on
           many subjects—often several thousand—to produce data that reliably predict the drug’s
           effects. Sponsors generally contract with many clinical investigators,



The Globalization of Clinical Trials                    1                                OEI-01-00-00190
           who conduct this research simultaneously at multiple research sites. Although these research
           sites were based almost exclusively in the U.S. in the past, they are increasingly based in foreign
           countries.

           NDAs can contain research conducted at U.S. and foreign sites. Although all U.S. clinical drug
           research must be conducted under an IND, foreign clinical drug research may be conducted
           either under an IND or other international guidelines. If foreign research is not conducted under
           an IND, then FDA requires it to have been conducted under the standards of the 1989 version
           of the Declaration of Helsinki or other guidelines, if they provide a higher level of human subject
           protections. (See Primer on p. 5 for application information, and appendix B for international
           guidelines.) FDA accepts NDAs containing three types of research data: (1) U.S. research, (2)
           foreign research conducted under an IND, and (3) foreign research conducted under other
           guidelines. A single NDA can contain any combination of these three types of data (see table 1
           below).


                                                        Table 1 

                             Possible Combinations of U.S. Research Data and Two Types of 

                              Foreign Research Data in a Single FDA New Drug Application



                 Possible                 U.S. research      Foreign research    Foreign research Not
               combinations            conducted under an   conducted under an   conducted under an
                  of data                      IND                 IND                    IND

               Combination 1                  V
               Combination 2                  V                    V
               Combination 3                  V                                          V
               Combination 4                  V                    V                     V
               Combination 5                                       V                     V
               Combination 6                                       V
               Combination 7                                                             V
             Source: OIG analysis of FDA information   .



Mechanisms for Assuring Human Subject Protections in Foreign Trials

           FDA’s investigational new drug regulations define institutional review boards as the oversight
           bodies “designated by an institution to review, to approve the initiation of, and to conduct
           periodic review of, biomedical research involving human subjects. The primary purpose of
           such review is to assure the protection of the rights and welfare of the human subjects.”3
           Institutional review boards are intended to protect human subjects in clinical trials, in part, by
           independently reviewing proposed research before investigators can enroll subjects in trials.




The Globalization of Clinical Trials                         2                                OEI-01-00-00190
           According to FDA regulations, foreign boards must adhere to international ethical standards,
           whether the standards are set by FDA, the Declaration of Helsinki, or the International
           Conference on Harmonization, as well as any regulations of their respective countries’
           regulatory agencies.4 Although these ethics boards go by several names, in this report we will
           refer to them all as institutional review boards.

           In addition to foreign institutional review boards, other entities play roles in overseeing foreign
           drug trials that contribute data to NDAs. FDA oversees the protection of subjects in foreign
           clinical trials through its regulation of the clinical investigator (see Primer p. 5). The sponsor,
           under an IND, is also responsible for monitoring the investigator. Finally, the regulatory agency
           of the country hosting the research, analogous to FDA in the U.S., may play an oversight role.

           Another entity that plays a role in the oversight of human subject protections is the Office for
           Human Research Protections, in the Office of the Secretary of the Department of Health and
           Human Services, previously known as the Office for Protection from Research Risks in the
           National Institutes of Health. This office is primarily responsible for overseeing research funded
           through the Department of Health and Human Services, but also serves an important leadership
           role within the Department, and in the Federal government as a whole.

International Harmonization of Research

           FDA has played an important role in efforts to create international standards for clinical
           research that facilitate the acceptance of well conducted international research. The
           International Conference on Harmonization was established in 1990 to create international
           standards for ensuring and assessing the quality, safety, and efficacy of drugs, including Good
           Clinical Practice guidelines for investigators, institutional review boards, and sponsors. Its
           members include FDA, the regulatory agencies of the European Union and Japan, and the
           pharmaceutical industry trade groups from these three regions. In May 1997, FDA published
           the International Conference on Harmonization guidelines in the Federal Register, as official
           U.S. guidance. These guidelines are very similar to FDA regulations.5 An increasing amount of
           international research is being conducted under these voluntary guidelines.

This Inquiry

           In this report we seek to document the extent of the growth of non-U.S. research that is
           submitted to FDA as part of an NDA and to assess FDA’s oversight of this research. We
           focus primarily on FDA’s capacity to ensure human subject protections in this foreign research.
           Our aim is not to examine or judge the merits of the ethical decisions made by foreign
           institutional review boards. Rather, we intend to assess FDA’s capacity, regulatory or
           otherwise, to adequately ensure human subject protections in this subset of foreign clinical
           research. In the past we have raised concerns about the oversight of




The Globalization of Clinical Trials                    3                               OEI-01-00-00190
           clinical research within the U.S.6 We do not expect these foreign trials to meet a higher (or
           lower) standard than those conducted domestically.

           This inquiry primarily focuses on FDA’s oversight of clinical drug trials that sponsors monitor
           and submit in an NDA. Of all the foreign clinical trials that FDA oversees, including drugs,
           medical devices, and biologics, drug trials constitute the largest number of non-U.S. trials and
           have occurred over the longest period of time, making these trials the most informative area to
           examine. This report does not focus on international research that is funded by the U.S.
           government or by non-profit organizations. However, some of the same concerns raised here
           may apply to this sphere of research as well.

Methodology

           We analyzed FDA’s database on foreign clinical investigators who are conducting drug
           research under INDs. Investigator information in this database is taken primarily from FDA
           Form 1572, which we will refer to as “attestations.” We also analyzed the FDA’s database of
           the results of both foreign and domestic inspections of clinical investigators conducting drug
           research. In addition, we interviewed key FDA officials involved in overseeing and harmonizing
           international drug research, including five who have inspected foreign sites. We also
           interviewed sponsor representatives. Finally, we reviewed pertinent FDA documents and
           related literature.

           We conducted this inspection in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.




The Globalization of Clinical Trials                   4                               OEI-01-00-00190
                               Primer on FDA Oversight of
                             U.S. and Foreign Drug Research

           This Primer applies to FDA’s regulation of clinical drug research. The distinction between U.S.
           and foreign research is based on the location where the research is conducted, not on
           characteristics of sponsors or investigators. After completing their research, sponsors submit
           research data in a New Drug Application (NDA). A single NDA can contain combinations of
           data from research conducted under an Investigational New Drug Application (IND) and data
           from research conducted under other research guidelines. All investigators whose research is
           submitted in an NDA are subject to inspection by FDA. 7



           Research conducted at U.S. Sites

           Sponsors intending to conduct U.S. based clinical studies must submit an IND to FDA before
           beginning research.8 FDA then has an opportunity to review the study design and procedures and
           suggest changes. Sponsors are also required to obtain a signed attestation (1572 form) from each
           of their clinical investigators, stating that they will conduct research in an ethical manner and
           according to FDA regulations. (See appendix C for specific commitments.) During the study,
           sponsors submit annual reports and other information to FDA.

           Research conducted at foreign sites

           In contrast to U.S. research, FDA does not require sponsors of foreign-based research to
           conduct research under an IND, although these sponsors can choose to do so.

           Foreign research conducted under an Investigational New Drug Application. Sponsors of
           foreign-based research who choose to submit an IND to FDA must also conduct research
           according to FDA regulations. However, FDA has less information about this research than it
           does for U.S. based research because it does not track investigators through a comprehensive
           database of signed attestations.

           Foreign research not conducted under an Investigational New Drug Application. If
           sponsors submit an NDA containing foreign research that was not conducted under an IND, that
           research must adhere to FDA regulations for foreign clinical studies not conducted under an
           IND. 9 This type of foreign clinical research must be conducted according to the ethical principles
           of the Declaration of Helsinki, or the countries’ own regulations, whichever offers the greater
           protection to the human subject.10 Many countries have adopted the Good Clinical Practice
           guidelines from the International Conference on Harmonization as their regulatory standard.11
           (See appendix B for a description of international guidelines.) Sponsors are not required to obtain
           attestations for investigators conducting research under these guidelines.




The Globalization of Clinical Trials                     5                                OEI-01-00-00190
                                           FINDINGS

FDA oversees significantly more foreign research than it did
10 years ago.

           Until recently, almost all of the clinical drug research submitted in support of NDAs was
           conducted at sites within the U.S. Increasingly, sponsors are conducting this research at sites
           outside of the U.S. Determining the precise growth of this particular subset of foreign research
           is difficult, however, because FDA’s current data system does not track NDA information by
           the location where research was conducted. As a result, FDA’s existing databases cannot
           provide information on the growth of NDAs that contain data from foreign clinical trials.
           FDA’s database for tracking clinical investigators who conduct drug research is based upon
           INDs, not NDAs. It therefore does not include foreign investigators whose research was not
           conducted under an IND, but was submitted in an NDA. 12 Thus, we use this database as just
           one source of information to support our finding of growth in foreign research that is submitted
           in NDAs.

The number of foreign clinical investigators conducting drug research under
Investigational New Drug Applications increased 16-fold in the past decade.

           In 1980, just 41 foreign clinical investigators conducted drug research under an IND. By 1990,

           that number grew to 271, and by 1999, to 4,458. The growth of these foreign clinical

           investigators has been particularly sharp in recent years (see figure 1). As mentioned

           previously, although FDA’s database does not capture the growth of foreign investigators who

           have submitted data in NDAs, the number of foreign clinical investigators FDA tracks under

           INDs has

           increased

           sharply.





The Globalization of Clinical Trials                  6                               OEI-01-00-00190
The number of FDA investigator inspections at foreign sites increased
dramatically.

           After receiving an NDA, FDA inspects clinical investigators at some of the key—sometimes
           referred to as “pivotal”—sites contributing data to the application. Pivotal sites are generally
           those that have enrolled the most subjects, and therefore contribute the most data to an NDA.
           High enrollment is not FDA’s only criterion for selecting investigators to inspect, but it is the
           main one.13 The number of FDA clinical investigator inspections that occurred at sites outside
           the U.S. increased sharply over the past decade—from 22 in 1990 to 64 in 1999 (see figure
           2). The rising number of investigator inspections occurring outside the U.S. does not fully
           reflect the growth of applications that contain some foreign data.14 However, dramatic growth
           in the number of foreign investigator inspections indicates the increasing role of foreign clinical
           drug research under FDA oversight.




The Globalization of Clinical Trials                    7                                OEI-01-00-00190
Sponsors have expanded research sites into many countries
that appear to have limited experience in clinical trials.

           Although the majority of foreign research contained in NDAs is still conducted in countries with
           a history of hosting this research, such as the United Kingdom, Germany, and Canada,
           countries in regions such as Eastern Europe, Latin America, and East Asia are emerging as
           desirable locations for sponsors to conduct research. For the purposes of this report, we will
           be referring to regions that are experiencing a vast growth in this research and that lack a
           history of hosting research as “emerging sites.”

           Once again, no definitive source of data exists on the amount of research occurring in each
           country that is intended for or is included in NDAs. Yet the pharmaceutical industry and FDA
           agree that this research is expanding into many new areas. Several sources of evidence
           demonstrate the regions and countries experiencing the most rapid growth.

Sponsors attest to this growth.

           An industry source reports that, in 1992, 61 premarket clinical research protocols were
           approved in Hungary; by 1998, that number almost tripled to 178 approved protocols.15
           Another industry source reports that the number of multi-site trial protocols in Russia grew from
           38 in 1996 to 99 in 1999.16

           Access to subjects. Sponsors report using emerging sites for their research to gain access to
           large numbers of subjects with a particular disease, especially those that are “naive subjects”
           (i.e., have not been treated for the disease being studied), and to obtain data on different racial
           or ethnic groups.17 Sponsors also report that these sites allow them to recruit subjects quickly
           and, therefore, bring their drugs to market faster. Sponsors report being able to recruit
           subjects more quickly in certain countries, particularly Russia and those in Eastern Europe, than
           in Western sites. For example, an organization specializing in managing clinical trials in Eastern
           Europe cited a study conducted in Poland where “the recruitment was so fast that 40 extra
           patients were enrolled at the sponsor’s request before some of the Western countries, still
           awaiting Ethics Committee’s approvals, had even started.”18 Another organization, specializing
           in Russian trials, states that, on average, any Russian site recruits twice as many subjects as any
           site in Western Europe, and some Russian sites have recruited up to 300 percent more than
           other sites.19

           Market development. Another reason why sponsors are conducting drug research in these
           emerging sites is to develop a market for the study drug in the event that it is approved by the
           FDA. 20 Many of these emerging sites are in regions of the world that are gaining purchasing
           power.




The Globalization of Clinical Trials                    8                               OEI-01-00-00190
           Regulatory standardization. The recent growth in this research is also likely related to the
           international regulatory harmonization efforts of the past decade. During this period, the
           International Conference on Harmonization standardized procedures of trial design, institutional
           review board review, and research conduct. As a result, FDA has become increasingly willing
           to accept data from foreign research as part of an NDA. In fact, FDA has the authority to
           approve applications that contain data exclusively from foreign sites, although such approvals
           are rare.

Contract Research Organizations are beginning to expand into these countries.

           Contract research organizations are entities with whom drug sponsors often contract to manage
           trials in foreign countries, particularly those in which sponsors have no offices.21 An analysis of
           industry trends cited a “global presence” as one of the main qualities that will make these
           organizations competitive in the future.22,23 The expansion of these organizations into more
           countries suggests that these countries are emerging as places where sponsors are currently
           conducting research or plan to in the future. In July 2000, the world’s largest contract research
           organization, which is currently located in 38 countries, opened offices in 7 new countries:
           Chile, Czech Republic, Greece, Norway, the Philippines, Romania, and Thailand.24 The
           second and third largest organizations, located in 29 and 17 different countries respectively,
           also recently opened offices in emerging sites.25 In 2000, another large organization expanded
           its clinical monitoring services into Asia and the Pacific Rim, claiming “the opportunity for the
           conduct of clinical trials in Asia, let alone prosperous drug sales, provides potentially limitless
           pharmaceutical business possibilities—especially in China.”26

           In addition, contract research organizations and site management organizations that specialize in
           managing and conducting clinical trials in these emerging areas have recently been established.
           For example, a contract research organization specializing in organizing clinical trials in Eastern
           Europe was established in 1994 and, in 1999, began applying this experience to trials in Latin
           America.27 A site management organization entirely focused on Russian clinical trials was
           established in 1999.28 Another organization began specializing in Baltic countries in 1998.29




The Globalization of Clinical Trials                    9                               OEI-01-00-00190
FDA tracked investigators working under                                             Table 2
Investigational New Drug Applications in                          Clinical Investigators Working Under IND
28 foreign countries in 1990 and 79                                  Regulations in Selected Countries.
countries in 1999.                                                         Fiscal Year 1991 to 1999


                                                                Country           91-93      94-96     97-99
           We have noted the limitations of FDA’s
           database of investigators conducting research        Argentina         6          122       271

           under an IND for quantifying the growth of           Brazil            16         52        187
           non-U.S. clinical research that is submitted in      Hungary           9          35        161
           NDAs. Yet the fact that these investigators          Mexico            29         48        187
           are conducting research in so many new
                                                                Poland            4          100       190
           countries over the past 10 years seems to
                                                                Russia            0          5         170
           indicate that sponsors are conducting their
           research in support of NDAs in areas not             Thailand          1          2         24
           used extensively for this type of research in
                                                               Source: OIG analysis of FDA data
           the past. The largest growth appears to be
           occurring in Eastern Europe, Latin America,
           and Russia (see table 2).

FDA is beginning to inspect investigators in emerging regions.

           FDA inspections of investigators can provide evidence of the growth of clinical

           research conducted outside of the U.S. as well as the areas where the research is taking place

           (see figure 3). Although FDA databases can not provide precise aggregate or specific

           information on the location of research contributing data to NDAs, the increasing number of

           countries experiencing their first investigator inspection demonstrates the growth of this research

           in emerging countries. FDA may choose to inspect investigators in certain countries, even if the

           site has not enrolled a large number of subjects, because these countries have not hosted

           research for NDAs before. In this case, FDA may use the investigator inspection as an

           opportunity to learn about the research conducted at a particular site and the conduct of clinical

           research in that country generally.





The Globalization of Clinical Trials                   10                                   OEI-01-00-00190
                                                      Figure 3. Emerging Sites




                            Countries experiencing their first FDA investigator inspection between 1996-1999   (19)




Brazil (1996), Costa Rica (1996), Peru (1996), Russia (1996), Austria (1997), Nigeria (1997), Panama (1997), Philippines (1997),
Czechoslovakia (1998), Slovenia (1998), Hungary (1998), Romania (1998), Norway (1998), Hong Kong (1998), China (1998),
Gabon (1998), Ireland (1998), Kenya (1998), Portugal (1998).
Source: OEI analysis of FDA data.



The Globalization of Clinical Trials                                              11                                  OEI-01-00-00190
FDA cannot assure the same level of human subject
protections in foreign trials as domestic ones.

FDA has minimal information on the performance of foreign institutional review
boards.

           Institutional review boards play a critical role in ensuring that proper protections are afforded to
           human subjects. They are responsible for carrying out this role at the outset, before the
           research is initiated, and on a continuing basis thereafter. These institutional review board
           reviews provide a valuable complement to FDA’s own reviews of IND applications.

           To help ensure that domestic institutional review boards perform their responsibilities in accord
           with FDA regulations, FDA conducts on-site inspections; in 2000, it carried out nearly 250
           such inspections. In contrast, FDA does not inspect foreign institutional review boards. Given
           the emphasis on international agreements, the sensitivities associated with national sovereignty,
           and the resource implications of international inspections, it is understandable why FDA may be
           reluctant to inspect foreign institutional review boards. But as the amount of foreign research
           contained in NDAs continues to grow, particularly in areas where boards may have little
           experience, FDA’s lack of information about the review of human subject protections in this
           subset of international research becomes increasingly problematic.

           FDA draws on more indirect means of assessing the performance of foreign institutional review
           boards, but these are quite limited in scope. When conducting investigations of foreign clinical
           investigators FDA can get some indication of how thoroughly the institutional review board is
           carrying out its review responsibilities by examining the investigator’s records of
           correspondence with the board.30 Also, when reviewing NDAs, it gets some basic information
           on the institutional review board reviews conducted.31 But neither of these processes provides
           the degree of information that can emerge from an on-site review of the board itself. FDA
           cannot depend on the regulatory bodies of the host countries to provide this information
           either.32

Not all foreign investigators who conduct research that is submitted in New Drug
Applications sign an attestation that they will uphold human subject protections.

           An attestation is a means of holding an individual investigator clearly and directly accountable
           for conducting research ethically. For foreign research conducted outside of an IND and
           subsequently used in support of an NDA, FDA does not require the sponsor to obtain a signed
           attestation from the foreign investigator; nor do the Declaration of Helsinki or the International
           Conference on Harmonization have any similar guidelines directed to the individual investigator.

           For research conducted under an IND, whether foreign or domestic, FDA does require
           sponsors to obtain a signed attestation from an investigator before the investigator begins




The Globalization of Clinical Trials                   12                                OEI-01-00-00190
           research. The great majority of research
                                                                                  The Attestation
           submitted to FDA in support of NDAs is
           carried out by investigators working                FDA requires that clinical investigators working
           under INDs. FDA does not have data on               under an IND sign an attestation. Following are
                                                               some of the commitments they make in signing that
           how many of these investigators actually
                                                               document:
           sign attestations. But through our
           inquiries in FDA, we learned that                   C        To adhere to the study protocol.
           sponsors of foreign research conducted              C        To personally conduct the research.
                                                               C        To inform subjects that the drugs are being
           under INDs may not always be obtaining
                                                                        used for investigational purposes.
           written attestations from foreign                   C        To ensure that FDA regulations of informed
           investigators, even though, as we have                       consent and IRB review are met.
           indicated, they are required to by FDA. 33          C        To report adverse events.
                                                               C        To report to the IRB any changes in the
                                                                        study protocol or any unexpected problems.
           Thus, for research submitted to FDA in
           support of an NDA, there is reason to               Source: FDA Form 1572

           believe that the potential of an investigator

           attestation as a means of fostering human

           subject protections is not being fully realized.


FDA experiences challenges inspecting investigators at foreign sites.

           FDA’s main mechanism for overseeing clinical research outside of the U.S. is its inspections of
           clinical investigators. It inspects investigators after research has been conducted, after an NDA
           has been submitted but before an approval decision. When FDA inspects clinical investigators,
           it focuses primarily on ensuring the integrity of the data submitted as part of the NDA. It also
           examines the adequacy of human subject protections by collecting from the investigator
           documentation of institutional review board approvals and modifications, subjects’ records, and
           informed consent documents.34 These inspections are a particularly useful oversight tool for
           FDA when inspecting clinical investigators who did not conduct research under an IND, since
           FDA is generally uninformed of these investigators’ activities throughout the entire research
           process, in contrast to investigators conducting research under an IND (see Primer on p. 5).
           FDA has faced some challenges in inspecting foreign sites:

           Logistics. FDA inspectors must give advance notice to the State department and obtain visas
           for the host countries. FDA schedules multiple foreign inspections in order to maximize
           resources. Domestic inspections, in contrast, are generally within driving distance of the district
           office. Another problem mentioned by one FDA official is that sometimes just before an FDA
           inspector is scheduled to inspect a foreign site, the site will contact them and inform them that
           they are missing source documents or other relevant documents at the site.35

           Diplomacy. FDA officials must ensure the safety and integrity of clinical trials without
           offending the host country. This can require making arrangements through diplomatic




The Globalization of Clinical Trials                     13                                     OEI-01-00-00190
           channels, such as parliaments or departments of health, commerce, or trade, which further
           complicates arranging foreign inspections. In addition, FDA inspectors must undergo additional
           training regarding cultural differences before conducting foreign inspections.

           Expense. Foreign inspections are more expensive than domestic inspections. Airfare alone to
           some countries exceeds the entire FDA estimate of $2500 per investigator per inspection. 36
           Foreign inspections are also more expensive than domestic ones because FDA must pay food
           and lodging expenses of its employees.37

FDA has limited information on the people and entities involved in foreign
research.

           During the course of research, FDA has little or no information about the sites, investigators,
           institutional review boards, and human subjects involved in research that is not conducted under
           an IND. It only obtains this information when a sponsor submits the NDA after completing all
           research. FDA’s only database that aggregates data across projects is restricted to data from
           IND submissions. Presently, FDA is unable to generate data from a database, or set of
           relational databases, that could answer the following questions about institutional review
           boards, investigators, sites, and human research subjects:

           Institutional review boards. How many are there? Where are they? How many protocols
           have they reviewed that ultimately led to NDAs?

           Investigators. How many are there outside of the U.S.? In which countries are they
           conducting their research? Is this changing? How many are working under an IND?

           Sites. How many are there? In which countries? How many research subjects are enrolled at
           each site?

           Human research subjects. How many have participated in NDA research? Which countries
           contribute the most subjects? Is this changing over time?

           Lacking this information, FDA is unable to systematically target its limited resources either for
           inspections or for educational purposes. It is also hard pressed to provide guidance or plan
           educational programs in regions experiencing rapid growth in clinical trials.

FDA typically does not review or discuss with sponsors the study designs and
monitoring plans of New Drug Application research that was not conducted under
an Investigational New Drug Application.

           Sponsors are required by both FDA regulation and International Conference on Harmonization
           guidelines to monitor the progress of clinical trials.38 But only under IND regulations is the
           sponsor required to submit its study design and monitoring plan prior to



The Globalization of Clinical Trials                   14                               OEI-01-00-00190
           conducting research. FDA is at liberty to reject the trial data when the NDA is submitted if it
           believes that the study was improperly designed or unethical. But, by the time a sponsor
           submits a New Drug Application, the trial is already completed. Thus, the study subjects would
           have already been placed at risk, or possibly harmed.

           The critical time for FDA to provide advice to sponsors on trial design and oversight is when
           the sponsor submits an IND, before any research subjects are enrolled in the trial. FDA
           engages in dialogue with sponsors during IND submissions. FDA evaluates the study design to
           determine whether the study is designed in such a way that it can achieve its intended
           objectives. At the time of an IND submission, FDA may also recommend to sponsors what
           would be an appropriate level and type of monitoring for that particular study. In order to
           determine the proper extent and nature of the monitoring, FDA conducts a clinical review of
           data from the study’s animal trials or earlier human trials to assess the potential risk of the trial.



Key entities overseeing or studying foreign research raise
concerns about some foreign institutional review boards.

           FDA has no direct regular contact with foreign institutional review boards, but other entities that
           have worked with or studied foreign institutional review boards have raised concerns about
           those boards that are inexperienced in conducting ethical reviews.

           The pharmaceutical industry. Sponsors have raised concerns regarding the capacity of the
           institutional review boards in some of the emerging sites to adequately review research
           according to Good Clinical Practice guidelines, under the International Conference on
           Harmonization or FDA standards. In one article, a pharmaceutical company representative
           stated, “...investing in Latin America, as in other emerging markets, presents some challenges
           not necessarily encountered in countries traditionally included in global clinical development
           programs,” including verifying the adequacy of institutional review boards used.39 A medical
           director of a U.S. pharmaceutical company based in China stated that it is difficult to obtain
           memberships, meeting schedules, and minutes of Chinese institutional review boards.40 One
           representative of a contract research organization noted that the protocol-approval process of
           Malaysian institutional review boards is poorly defined.41 An employee of a Russian-based
           contract research organization reported that she had frequently encountered problems with lack
           of full disclosure to potential subjects about the side effects of the study drug. 42 In fact, one
           large pharmaceutical company was concerned enough about the adequacy of ethics boards in
           some of these regions to contract a U.S. institutional review board to train members of the
           foreign institutional review boards reviewing its research.

           Regulatory agencies in the countries hosting research. When the Korean regulatory
           agency for clinical research inspected its sites, it found such deficiencies as: institutional review
           boards unaware of departures from protocol, institutional review boards not being informed of
           protocol changes, inappropriate review board operations, inadequate


The Globalization of Clinical Trials                    15                                 OEI-01-00-00190
           composition of review boards, inadequate informed consent, and lack of continuous trial review
           by review boards.43 In another recent case, South Africa’s health ministry forced companies to
           withdraw profitable clinical trials, stating that half the protocols seeking approval were
           substandard, both scientifically and ethically, including inadequate handling of informed consent
           of human subjects.44

           National Bioethics Advisory Commission. A recently commissioned report, Attitudes and
           Experiences of U.S. and Developing Country Investigators Regarding U.S. Human
           Subjects Regulations, found that institutional review board shortcomings may be particularly
           common in the developing world.45 It contained a survey of clinical investigators conducting
           research, mostly in Africa, Asia, and Latin America. The surveyed investigators raised
           concerns that some institutional review boards were improperly trained, were conducting
           primarily a scientific and budgetary review rather than an ethical one, and were not properly
           monitoring research.46 The Nuffield Council on Bioethics, a British council with a similar
           mission to the National Bioethics Advisory Commission in the U.S., also expressed concerns
           about some institutional review boards.47

           World Health Organization. In 1999, The World Health Organization’s Tropical Disease
           Research group conducted two seminars analyzing the status of ethical review in Asia, Africa,
           and the Western Pacific. These
           seminars revealed several weaknesses                      Some Weaknesses in Ethical Review
           in the ethical review systems of these                Systems in Asia, Western Pacific, and Africa
           countries (see box at right).48 As a result
                                                             1. 	Lack of procedures for reviewing the protocol
           of the seminars, the World Health                     and informed consent forms
           Organization developed Operational                2. 	Lack of trained institutional review board
           Guidelines for Ethics Committees                      members
           that Review Biomedical Research, a                3.  Insufficient resources
                                                             4. Lack of monitoring systems
           document which provides guidance to               5. 	Lack of quorum requirements for institutional
           countries and institutions for creating               review board meetings
           and operating their own research ethics           6. Lack of independence
           committees.49 It also established the
                                                             Source: World Health Organization
           Forum on Ethics Committees in Asia
           and the Western Pacific, a network for
           mobilizing resources, exchanging
           information and coordinating activities relating to institutional review boards. Among other
           activities, this forum facilitates training and education of members of ethics committees.50




The Globalization of Clinical Trials                    16                                OEI-01-00-00190
                                       RECOMMENDATIONS

           The evidence we have gathered indicates that the current situation is a serious one warranting
           further attention by the FDA and by the U.S. Department of Health and Human Services as a
           whole. The significant growth in foreign research that is submitted in New Drug Applications
           presents challenges to the Department’s ability to assure human subject protections.51

           We recognize that FDA has taken many important steps in strengthening human subject
           protections in foreign research, despite the difficulties associated with limited resources and
           limited information. We also recognize that all efforts in this area must respect the sovereignty
           of other countries and occur within the collaborative system governing international research.
           The National Bioethics Advisory Commission recently indicated the importance of achieving
           human subject protections, regardless of trial location. 52

           In many countries hosting drug trials that generate data for NDAs, a well-established set of
           rules and enforcement mechanisms exist to protect human subjects. But in some emerging sites,
           where a significant growth in NDA research is occurring—and is likely to continue to
           expand—current conditions may not allow for a level of protection comparable to that in U.S.
           sites.53

           Some of our recommendations may require additional regulations or additional resources on the
           part of FDA, the Office for Human Research Protections, regulatory agencies in foreign
           countries, and sponsors.

           We lead with five recommendations to FDA, which has the explicit jurisdiction for the
           commercially funded research that has been the focus of our inquiry, and close with two
           recommendations to the Office for Human Research Protections.

We recommend that FDA:

Examine ways in which it can obtain more information about the
performance of non-U.S. institutional review boards reviewing
clinical trials that provide data in support of New Drug Applications.


           We recognize that this is a complex matter that raises difficult questions about international
           relationships and the use of scarce resources. But our review provides an early warning signal
           that FDA does not have adequate assurance of human subject protections in a growing
           proportion of the research submitted in support of NDAs. In foreign, no less than in U.S. sites,
           institutional review boards must play a key role in ensuring such protections.




The Globalization of Clinical Trials                   17                               OEI-01-00-00190
           FDA’s informational void concerning the performance of foreign institutional review boards is
           of particular concern for emerging sites with little experience in conducting clinical research for
           NDAs and in providing human subject protections. One way in which FDA could help fill this
           void is to work with the host countries, encouraging them to oversee their institutional review
           boards and to share with FDA any information they have about the performance of those
           boards, particularly in cases where they review a substantial amount of research to be used in
           support of an NDA.

           Another more direct approach is to selectively conduct some reviews of institutional review
           boards at sites where such research is occurring and where FDA has minimal information about
           board review. With the participation of the host countries, FDA could conduct reviews with a
           focus on providing assistance to enhance review board performance. To conserve resources, it
           could also consider conducting these reviews in tandem with non-U.S. clinical investigator
           inspections.

Help inexperienced non-U.S. institutional review boards build their
capacity.

           As we have noted, various parties involved in clinical research have raised concerns about
           inexperienced institutional review boards, particularly when these boards are reviewing research
           not conducted under an IND. In recommending this capacity-building, we echo a similar
           recommendation made by the National Bioethics Advisory Commission in its recent report,
           Ethical and Policy Issues in International Research. The Commission found that “although
           ethics review committees are widely used throughout the international research community to
           ensure the protection of human participants, differences still remain in the level and quality of
           review.”54 It found that, in general, “ethics review committees in developing countries were less
           likely to raise either procedural or substantive issues for a given study, compared to U.S.
           boards.”55
                      .
           Many possible mechanisms exist for building the capacity of foreign boards. For example,
           FDA staff currently use travel outside of the U.S. for conferences or other reasons as an
           opportunity to conduct outreach to institutional review boards. It should continue these
           educational efforts but should expand them to provide technical assistance to these boards. It
           could also provide technical assistance to foreign ministries of health, which in turn could assist
           FDA in ensuring that boards are operating according to FDA or other research guidelines.

           Other entities that are currently helping FDA in these capacity-building efforts should continue
           to do so. The National Institute of Health’s Fogarty International Center recently awarded
           grants to U.S. and foreign academic institutions to extend existing U.S. bioethics curricula to the
           international arena and to assist developing nations in creating their own ethics education.56 In
           addition, international bodies, such as the World Health Organization, have played key roles in
           this area.




The Globalization of Clinical Trials                    18                               OEI-01-00-00190
           Finally, sponsors should take steps to educate the non-U.S. boards that they use, particularly
           those that lack experience reviewing FDA-regulated research. One way that they could do this
           is by contracting with experienced U.S. boards to help train the foreign boards.

Encourage sponsors to ensure that all non-U.S. investigators
participating in research for New Drug Applications sign
attestations indicating that they will uphold human subject
protections.

           FDA can take two steps toward this end. The first is to make certain that the attestations that
           are required of foreign investigators working under an IND are, in fact, signed. We received
           some indications that this has sometimes not been the case. We suggest that FDA reinforce to
           sponsors their obligations to obtain attestations from all investigators (foreign and domestic)
           conducting research as part of INDs.

           The second step concerns those foreign investigators who are not working under an IND, but
           are conducting research to be included in an NDA. In these instances, where there is no FDA
           requirement for an attestation, FDA could encourage sponsors to obtain an attestation from all
           participating investigators. The attestation could indicate readiness to comply with FDA
           requirements, the Declaration of Helsinki, the International Conference on Harmonization Good
           Clinical Practice standards, or with other local standards. Securing commitments from all
           investigators prior to the start of research, that they will follow an established set of clinical and
           ethical practices, can promote greater accountability among investigators and sponsors for
           protecting human subjects.

Encourage more rigorous monitoring of foreign research sites by
sponsors.

           Sponsor monitors can play an important role in overseeing all clinical trials because monitors
           are present at the research site with some regularity. Sponsor monitoring of research is
           required under FDA regulations and under International Conference on Harmonization
           guidelines. This is particularly important in non-U.S. sites because of the gaps in monitoring by
           other oversight entities.

           FDA could review all sponsor monitoring plans for research conducted at foreign sites to verify
           that those plans include provisions for ensuring that human subject protections are upheld. For
           example, in regions that are new to conducting research under FDA standards, FDA could
           encourage sponsors to occasionally observe the informed consent process or an institutional
           review board meeting. In doing this, FDA would be encouraging sponsors to shoulder
           additional review board oversight responsibilities. Currently, FDA often engages in an informal
           dialogue with sponsors about their monitoring plans. However, we suggest that FDA formalize
           this dialogue, as it has done recently for certain types of clinical trials. For example, FDA
           requires sponsors of gene transfer research to submit their monitoring plans for review prior to
           conducting research. 57


The Globalization of Clinical Trials                    19                                OEI-01-00-00190
Develop a database to track the growth and location of foreign
research.

           Currently, FDA databases lack important information on the extent of foreign research. They
           do not track the number of sites where NDA research is being conducted or the number of
           investigators or subjects involved in this research. Nor do they distinguish between sites that
           are operating under an IND and sites that are not.

           FDA should explore ways to track information about NDAs, including the investigators
           involved in NDA research, not just those who are working under INDs, who are currently
           tracked. It could enter this information into the investigator database retrospectively after NDA
           submissions, which contain this information. Although retrospective data would not improve
           oversight during these trials, it would allow FDA to analyze trends in the growth and location of
           research.

           FDA is now in the process of designing two other databases that relate to clinical trials. One
           will include a registry of all U.S. IRBs; the other will track demographic information on clinical
           trial subjects. As FDA designs these databases, it should consider ways in which it could
           develop them to facilitate the tracking of information on foreign research.

           Such data would enable FDA to improve its planning of oversight activities. For example,
           FDA could analyze this data to determine which regions of the world are hosting FDA-
           regulated clinical research for the first time or which regions are experiencing rapid growth in
           clinical research and then could target educational programs accordingly. FDA could use
           investigators’ and review boards’ names and contact information to disseminate relevant
           guidance and training materials.

Finally, we recommend that the Office for Human Research
Protections:

Exert leadership in developing strategies to ensure that adequate
human subject protections are afforded for non-U.S. clinical trials
that are funded by the Federal government and/or that contribute
data to New Drug Applications.

           The Office for Human Research Protections has already started moving in this direction through
           its stated intention to establish an office that will focus on international affairs. Because of its
           location in the Office of the Secretary, its recently established National Human Research
           Protection Advisory Committee, and its role (through the office director) as chair of Human
           Subjects Research Subcommittee of the White House Office of Science Technology and
           Policy, it is in a prime position to provide leadership on how to foster protections in non-U.S.
           sites where research is submitted in NDAs and/or is funded by the U.S. government.




The Globalization of Clinical Trials                   20                                OEI-01-00-00190
           As part of its leadership, we suggest that it work with FDA and the National Institutes of Health
           to determine specific steps that could be taken to assure proper protections for subjects
           participating in overseas trials. To the maximum extent possible, the Department of Health and
           Human Services should pursue developing an integrated approach that ensures proper
           protections regardless of whether the research is government funded or commercially funded as
           part of an NDA.

           In this context, it could be particularly helpful for the Office for Human Research Protections to
           address how the Department can better assess whether other nations’ laws and practices afford
           equivalent protections to those that apply to human subjects participating in clinical trials in the
           U.S. We recognize the sensitivities and complexities associated with such guidance, but the
           matter appears to warrant serious consideration.

           We also suggest that the Office for Human Research Protections use its position on the White
           House Human Subjects Research Committee, composed of 17 Federal agencies that have
           adopted the Common Rule for human subject protections, to stimulate integrated approaches
           across Federal agencies.58 The Common Rule has served such an integrating function for
           domestic research funded by the member agencies. Perhaps a new section of the rule could be
           added spelling out a similar integrated strategy directed specifically to government funded and
           NDA research at non-U.S. sites.

Encourage the development of a voluntary accreditation system for
human subject research programs.

           One way of helping inexperienced institutional review boards and research sites to improve
           their capacity to provide human subject protection is to encourage their participation in a
           voluntary accreditation system. While voluntary accreditation should not preclude additional
           FDA oversight, it can serve as a vital means of enhancing performance through collegial
           interaction and minimized reliance on the use of regulatory mechanisms. The Office for Human
           Research Protection has already contracted with the Institute of Medicine to develop a
           program and the Department of Veterans Affairs’ Office of Research Compliance and
           Assurance has contracted with the National Committee for Quality Assurance to develop and
           conduct a program. The Office for Human Research Protections should work with FDA, the
           National Institutes of Health, and international partners to foster effective accreditation practices
           throughout the world that are supported by the research community.




The Globalization of Clinical Trials                    21                               OEI-01-00-00190
          COMMENTS ON THE DRAFT REPORT


Within the Department of Health and Human Services, we received comments on the draft report from
the Food and Drug Administration (FDA) and the Office for Human Research Protections (OHRP).
External to the Department, we solicited comments from the Pharmaceutical Research and
Manufacturers of America (PhRMA), Public Citizen Health Research Group, Public Responsibility in
Medicine and Research (PRIM&R), and Applied Research Ethics National Association (ARENA).
We received comments from Public Citizen and joint comments from PRIM&R and ARENA, two
organizations that reflect the perspectives of many engaged in ensuring and/or studying human subject
protections. Based on the comments we received, we made some clarifications that are reflected in the
final report. Below we briefly summarize their comments and offer our responses in italics. Appendix
D contains the full text of each set of comments.

Food and Drug Administration

The FDA disagreed with our draft recommendation calling for it to improve the collection of data about
the location and oversight of research submit in New Drug Applications. It elaborated that neither the
purpose nor method of data collection we proposed were clear enough to warrant a commitment of
scarce resources. In this final report, we modified our recommendation to more clearly call for
FDA to develop a database to track the location and growth of foreign research, (and suggested
at least one way to do so.) With the significant growth taking place in foreign research that is
submitted as part of New Drug Applications, we regard such an information base as an
important means to help guide FDA oversight. FDA is developing other data bases to track
IRBs and demographic information on clinical trials. As it works on these other databases, it
might explore ways in which they could be developed to facilitate the tracking of information on
foreign research

At a general level, FDA agreed with our remaining recommendations. It did not elaborate on the
specifics of how it would carry them out. It emphasized the importance of capacity building efforts in
dealing with foreign IRBs and the minimal resources FDA now has to support such efforts. It also
underscored its concern that it not discourage the submission of important, ethically conducted foreign
research and thereby slow the approval of products that could benefit the American public. And it
noted its limited authority in foreign countries as a constraint in carrying out the remaining
recommendations. We recognize the importance of capacity-building to address the concerns we
raise in our report and of drawing on available, relevant data in support of New Drug
Applications. At the same time, we urge FDA to recognize that our review presents a significant
warning signal that it does not have sufficient assurances of human subject protections in a
growing proportion of the research submitted to support New Drug Applications. Within the
limits of its resources, it is important that FDA do all it can to draw attention to this situation
and to foster corrective actions. Its relationships with sponsors can be particularly valuable in
this regard. Finally, while we agree that resources and authority are limiting factors, we believe
the FDA can use its technical expertise, its influence as the


The Globalization of Clinical Trials              22                              OEI-01-00-00190
approving authority for drugs marketed in the U.S., and its prestige and experience in
international circles to promote reforms, even in foreign countries.

Office for Human Research Protections

The Office concurred with the two recommendations we directed to it. It referenced its establishment
of a new component office on international activities and underscored its readiness to engage in the kind
of leadership we urged and to foster voluntary accreditation as a means of enhancing human subject
protections. We are pleased with the Office’s positive response. Through its educational
activities, its own oversight efforts, and its leadership position among Federal agencies, it has a
major opportunity to help foster human subject protections in the emerging sites where so much
research is now being done in support of New Drug Applications.

External Comments

PRIM&R and ARENA expressed support for our assessments and recommendations. They
emphasized the importance of fostering mechanisms for locally driven education, using approaches such
as those that PRIM&R and ARENA have used in the United States. They strongly endorsed our
recommendation for improved data collection and urged that FDA not just encourage, but in fact
require attestations from all investigators conducting research to be used in support of New Drug
Applications. The educational approaches that PRIM&R and ARENA have taken over the years
do serve as a good model for locally driven education efforts in emerging sites. We urge both
FDA and OHRP to draw upon them as they proceed with their own efforts. We recognize
PRIM&R and ARENA’s sense of urgency about attestations for all research. Before any such
requirement, we think it is important for FDA to try to use existing points of leverage to
promote the wider use of attestations.

Public Citizen was more critical, noting in particular that our recommendations were not strong enough
in light of the serious problems we identified. It also noted that we failed to draw adequately on prior
research and to give sufficient attention to deficiencies in the data collected by FDA. Public Citizen
underscored the significance of our central finding that FDA can not assure the same level of
protections in foreign trials as domestic ones. Public Citizen’s impatience with the current situation
reflects that of other advocates we spoke with in the course of our inquiry and warrants
consideration. We did draw on considerable prior research, much of it cited in the 65 endnotes
in the report. What we did not do is cite specific incidents wherein human subject protections
were compromised in foreign sites. Our aim in this report was to provide a systematic review of
existing oversight, not to assess the adequacy of protections in foreign sites.




The Globalization of Clinical Trials               23                              OEI-01-00-00190
                                                                                               APPENDIX A

                                       Foreign Investigator Inspections
           Between 1981, when FDA first began inspecting foreign sites where clinical investigators
           conduct NDA research, and 1999, FDA conducted 352 inspections in 41 foreign countries.
           Our analysis of the results of FDA clinical investigator inspections found that the outcomes of
           these inspections, based on FDA’s classifications — FDA’s overall evaluation of clinical
           investigator’s compliance — were very similar to those given to domestic inspections.59 For
           example, in both fiscal years 1998 and 1999, FDA found serious problems in about 3 percent
           of foreign and domestic inspections. (See table 1)

                          Table 1. Classifications of Foreign and Domestic Investigator Inspections

        Fiscal       Location           Number of      Percent          Percent         Percent         Percent
        Year                           Inspections    “Official       “Voluntary      “No Action        Pending
                                                       Action           Action        Indicated”
                                                     Indicated”       Indicated”         (NAI)
                                                        (OAI)            (VAI)
                      foreign              60            3                53              43                0
        1998         domestic             286            5                54              41                0
                      foreign              64            3                55              42                0
        1999     domestic                 242            2                52              45                1
     Source: FDA data



           OAI= FDA takes official action against investigator (e.g., sends warning letter outlining
           violations and requesting response or, for more serious violations, refuses to accept data).

           VAI= FDA asks investigator to make voluntary changes.

           NAI= Inspection reveals no objectionable conditions or practices; clinical investigator not
           required to make any changes.

           In addition to classifying the investigator inspection overall, FDA can cite clinical investigators
           for specific deficiencies, based on observations made during investigator inspections. Our
           analysis found that, as with overall classifications, the deficiency codes given to foreign
           inspections have not been significantly different from those of domestic inspections (see table 2
           on next page).




The Globalization of Clinical Trials                         24                                OEI-01-00-00190
                                                                                          APPENDIX A

                  Table 2. A Comparison of Deficiency Code Distributions for Foreign and Domestic
                                        Investigator Inspections (1995-99)

                                                                Percent of Foreign    Percent of Domestic
                            Deficiency Code                        Deficiencies           Deficiencies
                                                                     (n=362)               (n=1781)
     Problems with records availability                                <1                      <1
     Failure to obtain patient consent                                  1                      <1
     Inadequate patient consent form                                   12                      18
     Inadequate drug accountability                                    12                      10
     Failure to adhere to protocol                                     30                      27
     Inadequate and inaccurate records                                 26                      21
     Unapproved concomitant therapy                                     –                      <1
     Inappropriate payment to volunteers                                –                       –
     Inappropriate delegation of authority                              –                      <1
     Failure to obtain or document IRB approval                         –                      <1
     Failure to notify IRB of changes, failure to submit                –                       1
     reports, etc.
     Failure to report adverse reactions                                9                      10
     Submission of false information                                    –                      <1
   Source: FDA data




The Globalization of Clinical Trials                       25                            OEI-01-00-00190
                                                                                                              APPENDIX B

                                   International Research Guidelines


           The Declaration of Helsinki.60 Established in 1964 by the World Medical Association,
           these were the first somewhat detailed set of ethical guidelines for international clinical research.
           They are ethical principles directed at clinical investigators. Although the Declaration is not
           prescriptive about the oversight of investigators conducting human subjects research, the
           October 2000 revision does state that investigators should be aware of the ethical, legal, and
           regulatory requirements for research on human subjects in their own countries and
           internationally. Moreover, it states that investigators should submit the research protocol to an
           independent ethics committee for review prior to conducting the research. In terms of
           conducting research in other countries, the Declaration states that

                      Medical research involving human subjects is only justified if there is a reasonable
                      likelihood that the populations in which the research is carried out stand to benefit
                      from the results of the research.

           International Ethical Guidelines for Biomedical Research Involving Human Subjects.61
           These guidelines were developed in 1982 by the Council for International Organizations of
           Medical Sciences, in collaboration with the World Heath Organization. The purpose of these
           guidelines was to aid developing countries in applying the principles of the Declaration of
           Helsinki.

           These guidelines do contain provisions for ensuring that ethical principles are adhered to, giving
           special attention to preventing exploitation of human subjects in developing countries. For
           example, the commentary for “Research involving subjects in underdeveloped communities,”
           indicates the need for review by an ethical board:

                      To guard against exploitation of individuals and families in socially and economically
                      exploitable communities, sponsors and investigators who wish to conduct in such
                      communities research that could be carried out reasonably well in developed
                      communities must satisfy their national or local ethical review committees, and in the
                      case of externally sponsored research the appropriate ethical review committee in the
                      host country, that the research would not be exploitative. The reason for choosing an
                      underdeveloped community should be made explicit.62 [Italics added]

           “Obligations of sponsoring and host countries,” suggests another oversight provision—that an
           objective entity in the sponsoring country review the protocol:

                      When externally sponsored research is initiated and financed by an industrial
                      sponsor such as a pharmaceutical company, it is in the interest of the host
                      country to require that the research proposal be submitted with the comments of
                      a responsible authority of the initiating country, such as a health administration,
                      research council, or academy of medicine or science.63




The Globalization of Clinical Trials                              26                                          OEI-01-00-00190
                                                                                         APPENDIX B

           International Conference on Harmonization Good Clinical Practice Guidelines.64 The
           International Conference on Harmonization, a collaboration between the United States, the
           European Union, and Japan, was established in 1990 to create international standards for the
           quality, safety, and efficacy of drugs to facilitate international trade. The Good Clinical Practice
           Guidelines include standards for overseeing human subject protections. Mostly, the guidelines
           hold sponsors accountable for ensuring these protections. Among other responsibilities, the
           guidelines state that the sponsor should verify that the investigator has adequate qualifications,
           has written informed consent before each subject’s participation in the trial, and is only enrolling
           eligible subjects. The sponsor must also confirm that the protocol was adequately reviewed by
           the appropriate institutional review board.

           There are also guidelines for institutional review boards. These spell out the institutional review
           board’s responsibilities. For example, the institutional review board is responsible for reviewing
           recruitment advertisements, the informed consent document, and the amount of compensation
           to be given to research subjects. Other institutional review board responsibilities laid out in
           International Conference on Harmonization guidelines include reviewing the qualifications of the
           investigator who will be conducting the study and conducting continuing review of the trial. In
           addition to specifying review board responsibilities, it lays out guidelines for board composition,
           function, operations, and procedures.

           Operational Guidelines for Ethics Committees that Review Biomedical Research. 65
           This document, developed by the Tropical Disease Research group of the World Health
           Organization, provides guidance to countries and institutions for creating and operating their
           own research ethics committees. The group developed these guidelines because investigators
           in developing countries were conducting increasingly more research, but few people in these
           countries had experience setting up and running ethics committees. The existing international
           research ethics documents focused on ethical issues, not on how the ethical review committee
           should be staffed, organized, or operated.




The Globalization of Clinical Trials                   27                                OEI-01-00-00190
                                                                                      APPENDIX C

                   Commitments in Clinical Investigator Attestation



1. I agree to conduct the study(ies) in accordance with the relevant, current protocol(s) and will only
make changes in a protocol after notifying the sponsor, except when necessary to protect the safety,
rights, or welfare of subjects.

2. I agree to personally conduct or supervise the described investigation(s).

3. I agree to inform any patients, or any persons used as controls, that the drugs are being used for
investigational purposes and I will ensure that the requirements relating to obtaining informed consent in
21 CFR Part 50 and institutional review board (IRB) review and approval in 21 CFR Part 56 are met.

4. I agree to report to the sponsor adverse experiences that occur in the course of the investigation(s) in
accordance with 21 CFR 312.64.

5. I have read and understand the information in the investigator’s brochure, including the potential risks
and side effects of the drug.

6. I agree to ensure that all associates, colleagues, and employees assisting in the conduct of the
study(ies) are informed about their obligations in meeting the above commitments.

7. I agree to maintain adequate and accurate records in accordance with 21 CFR 312.62 and to make
those records available for inspection in accordance with 21 CFR 312.68.

8. I will ensure that an IRB that complies with the requirements of 21 CFR Part 56 will be responsible
for the initial and continuing review and approval of the clinical investigation. I also agree to promptly
report to the IRB all changes in the research activity and all unanticipated problems involving risks to
human subjects or others. Additionally, I will not make any changes in the research without IRB
approval, except where necessary to eliminate apparent immediate hazards to human subjects.

9. I agree to comply with all other requirements regarding the obligations of clinical investigators and all
other pertinent requirements in 21 CFR Part 312.




The Globalization of Clinical Trials                 28                               OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   29       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   30       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   31       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   32       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   33       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   34       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   35       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   36       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   37       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   38       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   39       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   40       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   41       OEI-01-00-00190
                                            APPENDIX D




The Globalization of Clinical Trials   42       OEI-01-00-00190
                                                                                    APPENDIX E




                                             Endnotes

1. This report focuses on those non-U.S. trials that are submitted to FDA in New Drug Applications.
Many drug studies are conducted outside the U.S. that do not result in these submissions.

2. Joe Stephens, Mary Pat Flaherty, Deborah Nelson, “The Body Hunters: Testing Drugs on the
World,” The Washington Post, Sunday, 17 December, 2000, through Friday, 22 December, 2000.

3. 21 CFR sec. 56.102 (b)(21)(g).

4. FDA’s Investigational New Drug regulations at 21 CFR sec. 312.120 (c) state, in part, that “foreign
clinical research is required to have been conducted in accordance with the ethical principles stated in
the Declaration of Helsinki” and that “for each foreign clinical study submitted under this section, the
sponsor shall explain how the research conformed to the ethical principles contained in the Declaration
of Helsinki or the foreign country’s standards, whichever were used. If the foreign country’s standards
were used, the sponsor shall explain in detail how those standards differ from the Declaration of
Helsinki and how they offer greater protection.”

5. One difference between FDA regulations and International Conference on Harmonization Good
Clinical Practice standards is that FDA is slightly more explicit in its institutional review board
requirements, matters such as membership and quorum. In a few areas, the International Conference
on Harmonization is stronger. For example, it requires the person obtaining consent to be identified
through signature on the informed consent statement.

6. Department of Health and Human Services, Office of Inspector General, Institutional Review
Boards: A Time for Reform, OEI-01-97-00193, June 1998.

7. FDA can reject the data in a New Drug Application if an investigator refuses to allow an inspection.

8. 21 CFR sec. 312.

9. 21 CFR sec. 312.120. “Foreign clinical studies not conducted under an IND.” These state, in part,
that “[i]n general, FDA accepts such studies provided they are well designed, well conducted,
performed by qualified investigators, and conducted in accordance with ethical principles acceptable to
the world community.” They must also be conducted under the principles of the Declaration of
Helsinki, or the local country’s standards, if they offer greater human subject protections:

  (a) Introduction. This section describes the criteria for acceptance by FDA of foreign clinical studies
not conducted under an IND. In general, FDA accepts such studies provided they are well designed,
well conducted, performed by qualified investigators, and conducted in accordance with ethical



The Globalization of Clinical Trials               43                               OEI-01-00-00190
                                                                                    APPENDIX E




principles acceptable to the world community. Studies meeting these criteria may be utilized to support
clinical investigations in the United States and/or marketing approval. Marketing approval of a new
drug based solely on foreign clinical data is governed by Sec. 314.106.
   (b) Data submissions. A sponsor who wishes to rely on a foreign clinical study to support an IND or
to support an application for marketing approval shall submit to FDA the following information:
   (1) A description of the investigator's qualifications;
   (2) A description of the research facilities;
   (3) A detailed summary of the protocol and results of the study, and, should FDA request, case
records maintained by the investigator or additional background data such as hospital or other
institutional records;
   (4) A description of the drug substance and drug product used in the study, including a description of
components, formulation, specifications, and bioavailability of the specific drug product used in the
clinical study, if available; and
   (5) If the study is intended to support the effectiveness of a drug product, information showing that
the study is adequate and well controlled under Sec. 314.126.
   (c) Conformance with ethical principles. (1) Foreign clinical research is required to have been
conducted in accordance with the ethical principles stated in the “Declaration of Helsinki” (see
paragraph (c)(4) of this section) or the laws and regulations of the country in which the research was
conducted, whichever represents the greater protection of the individual.
   (2) For each foreign clinical study submitted under this section, the sponsor shall explain how the
research conformed to the ethical principles contained in the “Declaration of Helsinki” or the foreign
country's standards, whichever were used. If the foreign country's standards were used, the sponsor
shall explain in detail how those standards differ from the “Declaration of Helsinki” and how they offer
greater protection.
   (3) When the research has been approved by an independent review committee, the sponsor shall
submit to FDA documentation of such review and approval, including the names and qualifications of
the members of the committee. In this regard, a “review committee” means a committee composed of
scientists and, where practicable, individuals who are otherwise qualified (e.g., other health
professionals or laymen). The investigator may not vote on any aspect of the review of his or her
protocol by a review committee.

10. The Declaration of Helsinki is an international guideline for conducting human subjects research. It
was first issued by the World Medical Association in 1964 and most recently revised in October of
2000. The October 2000 revision was a cooperative effort of medical representatives from 45
countries. For this updated version, see http://www.wma.net/e/policy/17-c_e.html, accessed October, 2000.

11. Because these guidelines are more explicit than the Declaration of Helsinki, they meet FDA’s
criteria of being the higher standard for protecting subjects.




The Globalization of Clinical Trials                44                              OEI-01-00-00190
                                                                                    APPENDIX E




12. In addition, FDA’s database for tracking for tracking clinical investigators who conduct drug
research does not accurately represent the number of foreign investigators working under an IND who
have signed attestations that they will follow FDA regulations, because not all foreign investigators are
required to submit them, and not all of those who are required to submit them may be doing so.

The clinical investigator database contains investigator information including name, site, address, and
degree, based on information contained in the sponsor’s IND submission (Form FDA 1571). This
form requires sponsors to provide investigator information either by submitting the attestation form
signed by the investigators (Form FDA 1572) or by providing information described in 21 CFR sec.
312.23(a)(6)(iii)(b), which includes “[t]he name and address and a statement of the qualifications
(curriculum vitae or other statement of qualifications) of each investigator, and the name of each
subinvestigator (e.g., research fellow, resident) working under the supervision of the investigator; the
name and address of the research facilities to be used; and the name and address of each reviewing
Institutional Review Board.” The majority of information in the database does come from attestations.

However, because sponsors are not required to submit attestations and because the database does not
identify the source of the investigator information, the database can not be used to determine how
many foreign investigators have signed attestations. According to 21 CFR sec. 312.53 (c), sponsors of
research conducted under an IND must obtain a signed attestation from an investigator “before
permitting an investigator to begin participation in an investigation.”

13. Department of Health and Human Services, Office of Inspector General, FDA Oversight of
Clinical Investigators, OEI-05-99-00350, June 2000.

14. Figure 2 does not fully reflect the growth of clinical investigator inspections where the NDA
contains foreign data because FDA tracks investigator inspections by the site at which the investigation
occurs, not by the content of the data contained in the NDA. As a result, even clinical investigator
inspections that occur in the U.S., which are not reflected in Figure 2, may be part of an NDA that
contains data from foreign research that goes uninspected.

15. This includes phase 1, 2, and 3 trials. B.L. Natorff, “Clinical Trials in Central and Eastern
Europe,” Presentation at the 36th Annual Meeting of the Drug Information Association, San
Diego, CA, 12 June 2000.

16. The number of approvals includes trials that, despite approval, may have never been launched or
may have stopped prior to completion. W. Allen, “Russian Market Meets its First SMO,”
Centerwatch 7 (February 2000) 2:4.

17. K. Kaitlin, “Global Drug Development and International Harmonization: the Emergence of China
as a World Pharmaceutical Player,” Drug Information Journal 32 (1998): 1187S; S. Wanless,


The Globalization of Clinical Trials                45                              OEI-01-00-00190
                                                                                                  APPENDIX E




“Ethical and Policy Issues in the Oversight of Human Subjects: Private Sector Roundtable,”
Presentation at the 39th meeting of the National Bioethics Advisory Commission, Washington, DC, 7
April 2000; C. Statuch, “Clinical Trials is Russia: Are They Really as Good as They Sound?”
Presentation at the 36th Annual Meeting of the Drug Information Association,” San Diego, CA, 13 June
2000;

and J. DeSilva, “Site Selection for Clinical Trials,” Drug Information Journal 32 (1998): 1257S.

18. B.L. Natorff, “Experiences of a CRO Operating in Central and Eastern Europe,” EPC

International.


19. P. Loveday, “Clinical Trials in Russia: Are They Really as Good as They Sound?,” Presentation at

the 36th Annual Meeting of the Drug Information Association,” San Diego, CA, 14 June 2000.


20. S. Wanless, “Ethical and Policy Issues in the Oversight of Human Subjects: Private Sector

Roundtable,” Presentation at the 39th Meeting of the National Bioethics Advisory Commission,

Washington, DC, 7 April 2000.

.

R.J. Taylor and F. Knox, “A Clinical and Regulatory Perspective on Conducting Clinical Trials in Latin

America,” Applied Clinical Trials, 1999. http://actmagazine.com/articles/act.taylor.cfm, accessed May,

2000; P. Loveday, “Clinical Trials is Russia: Are They Really as Good as They Sound?” Presentation at

the 36th Annual Meeting of the Drug Information Association,” San Diego, CA, 13 June 2000.


21. L.R. Ptak, “The Globalization of Clinical Research,” Journal of Pharmacy Practice 9

(December 1996) 6: 418.


22. K.L. Miller and S.L. Pryce, “Better, Faster, Worldwide Too— Update on Pharmaceutical

Contract Support Organizations,” Hambrecht & Quist, L.L.C., Industry Report (4 January 1999): 1. 



23. Association of Clinical Research Professionals, ACRP’s White Paper on Future Trends: Faster
Time to Market (1998): 7.

24. S. Engel, “Holding On,” R&D Directions 6 (September 2000) 8: 109.

25. The three largest contract research organizations are Quintiles, Paraxel, and Covance. The
number of countries where contract research organizations are located is constantly changing.
Quintiles: “Quintiles Signs Letter of Intent to Acquire Pharmacia’s Clinical Development Unit in
Stockholm,” 30 November 2000,
http://www.quintiles.com/press/press_releases/press_release/1,1286,723,00.html, accessed December, 2000;
Covance Inc.,“Corporate Information,” http://www.covance.com/aboutcvd/index.html, accessed December,

The Globalization of Clinical Trials                        46                                     OEI-01-00-00190
                                                                                       APPENDIX E




2000;

Paraxel International Corporation, “Parexel And Acadia Collaborate to Incorporate

Pharmacogenomics Into Neuropsychiatric Drug Development,” 28 November 2000

http://www.parexel.com/main.htm, accessed December 2000



26. Kendle International Inc., “Clinical Development in Asia,” http://www.kendle.com/asia.html, accessed
December, 2000. Information on its plans for global expansion in 1999 Annual Report.

27. Pharm-Olam International, Inc. From DataEdge “CRO Capability Assessment Service,”
http://www.dataedge.com/crop.html, accessed December 2000
http://www.norma.dk/htm/exp100.htm

28. W. Allen, “Russian Market Meets its First SMO,” Centerwatch 7 (February 2000) 2:4.

29. NORMA ApS, “Development,” http://www.norma.dk/htm/con100.htm, accessed December, 2000

30. If during the investigator inspection FDA finds evidence of an ethical violation (e.g., lack of
institutional review board approval of the protocol prior to conducting the research), it can refuse to
accept that investigator’s data in the NDA.

31. This is the only information that FDA receives about the board review of research conducted at
sites not under an IND application that FDA does not inspect. According to the FDA medical officers
that receive these submissions, this is generally very basic information, such as the name and address of
the review board and a statement that the board reviewed and approved the protocol.

32. Foreign regulatory agencies, analogous to FDA in this country, may inspect the institutional review
boards within their countries. However, FDA officials were unaware of any foreign regulatory agencies
that did so. For example, the European Medicines Evaluation Agency, the regulatory agency that
oversees all clinical research in the European Union, inspects many different entities involved in clinical
trials, but does not inspect institutional review boards. Some regulatory agencies' investigator
inspections involve reviewing certain aspects of the institutional review board. FDA does not routinely
collect or maintain information on the way different countries’ regulatory agencies oversee institutional
review boards. Because the extent and type of clinical research inspections conducted by regulatory
agencies varies significantly by country, FDA cannot rely on this oversight mechanism to protect human
subjects in non-U.S. trials.

33. See endnote 11.

34. According to FDA’s protocol for clinical investigator inspections, the FDA inspector should:
obtain copies of the protocol and all approvals and modifications; determine whether the protocol
changed and whether these changes were approved by the institutional review board before


The Globalization of Clinical Trials                        47                          OEI-01-00-00190
                                                                                       APPENDIX E




implementation; obtain consent forms and determine whether consent was sought prior to the subject’s
entry into the study; determine whether the consent form is compliant with FDA or International
Conference on Harmonization -Good Clinical Practice standards; obtain the name, address, and chair
of the institutional review board; and determine whether the investigator maintains copies of all
correspondence with the institutional review board and whether the investigator reports all deaths,
adverse events, and unanticipated problems to the institutional review board. Food and Drug
Administration, “Bioresearch Monitoring for Clinical Investigators: FDA Compliance Program
7348.811,” 1 October 1997. http://www.fda.gov/ora/compliance_ref/bimo/7348_811/default.html, accessed
October 2000

35. Antoine El-Hage, “Preparing for FDA Visits,” Presentation at FDA’s Clinical Trials 2000
Conference. Rockville, MD, October 6, 2000.

36. For example, an FDA official mentioned a flight to South Africa that cost about $5,000.

37. In some locations, such as parts of Japan and Brazil, lodging alone can be exorbitantly expensive.
The listed maximum Federal employee travel rates for certain foreign cities with high costs of living fail
to reflect the actual cost of lodging in these cities. Because no hotels are available for U.S. government
rates, FDA officials state that they sometimes must exceed maximum rates by up to 300 percent. For
Federal per diem allowances see: U.S. State Department, “Maximum Travel Per Diem Allowances
for Foreign Areas,” Section 925, a Supplement to the Standard Regulations (Government Civilians,
Foreign Areas). http://www.state.gov/www.perdiems/2000/0004bperdiems.html, accessed April, 2000.

38. According to FDA guidance, sponsors are responsible for: the selection of adequately qualified
and trained monitors; written monitoring procedures; preinvestigation visits to ensure that investigators
understand the protocol and understand their obligation to obtain IRB approval prior to conducting the
study, as well as to obtain informed consent from each study subject prior to enrollment in the trial;
periodic visits to the site throughout the trial, which are to be documented in writing; and a review of
subjects’ records to ensure that they are accurate and complete. FDA guidance states, "proper
monitoring is necessary to assure adequate protection of the rights or human subjects and the safety of
all subject involved in clinical investigations and the quality and integrity of the resulting data submitted
to the FDA." Food and Drug Administration Office of Regulatory Affairs, "Guideline for the Monitoring
of Clinical Investigations," January 1988. http://www.fda.gov/ora/compliance_ref/bimo/clinguid.html accessed
October 2000. See also 21 CFR 312.53 “Selecting investigators and monitors.”


If a sponsor brings questions to FDA about a non-U.S. non-IND study, FDA will very likely give input
and comments, even though such a submission is not required.

39. R.J. Taylor and F. Knox, “A Clinical and Regulatory Perspective on Conducting Clinical Trials in
Latin America,” Applied Clinical Trials, 1999. http://actmagazine.com/articles/act.taylor.cfm, accessed


The Globalization of Clinical Trials                 48                                OEI-01-00-00190
                                                                                    APPENDIX E




May, 2000.

40. J. Lee, “Clinical Research in China,” Drug Information Journal 32 (1998): 1271S.

41. S. Puri, Covance Asia, as cited in CC. Lang, “The Current Status of Clinical Trials in Malaysia,”
Drug Information Journal 32, (1998): 1245S.

42. “Russian Market Meets its First SMO,” Centerwatch 7 (February 2000) 2:4.

43. S. Shin, “The Current Status of Clinical Trials in the Republic of Korea,” Drug Information
Journal 32 (1998): 1220S.

44. P. Sidley, “Drug Firms in Bind Over Clinical Trials” Business Day, 28 August 2000.
http://allafrica.com/stories/200008280121.html, accessed October, 2000.


45. N. Kass and A. Hyder, (Draft) “Attitudes and Experiences of U.S. and Developing Country
Investigators Regarding U.S. Human Subjects Regulations,” A Commissioned Paper for the National
Bioethics Advisory Commission, (15 June 2000): 25.

46. Ibid., 13, 78, 93, 167-8.

47. Nuffield Council on Bioethics, The Ethics of Clinical Research in Developing Countries,
October, 2000.

48. World Health Organization’s Division of Tropical Disease Research, “Developing the Ethical
Review Process,” TDRnews 61 (February 2000).
http://www.who.int/tdr/publications/tdrnews/news61/ethical.htm, accessed November, 2000.


49. World Health Organization, Operational Guidelines for Ethics Committees That Review
Biomedical Research, Geneva, 2000.

50. World Health Organization’s Division of Tropical Disease Research, “The Ethics of Biomedical
Research: Sustainable Activities Begin in Asia and the Western Pacific,” TDRnews 63 (October 2000).
http://www.who.int/tdr/publications/tdrnews/news63/ethics.htm, accessed November, 2000.


51. In prior reports, we raised concerns about how well such protections are being met in clinical trials
in the U.S. and have made recommendations to FDA and other Department of Health and Human
Services components. Many Department efforts are currently underway to improve human subject
protections in the U.S.

52. National Bioethics Advisory Commission, Ethical and Policy Issues in International Research:
Clinical Trials in Developing Countries. April 2001.

The Globalization of Clinical Trials               49                               OEI-01-00-00190
                                                                                        APPENDIX E




53. Our interviews, review of the literature, and attendance at conferences suggest that to varying
degrees those conditions can be described as follows:

           (a) A fragile foundation for independent review: Foreign institutional review boards may lack
           the support to conduct a review that is sufficiently independent of the research interests. For
           host countries and their research institutions, participation in clinical trials conducted by
           international pharmaceutical companies can bring money, prestige, and the opportunity to
           develop a local research industry. For physicians, clinical trials can present an opportunity to
           participate in cutting edge research on a multinational scale, and may substantially enhance the
           income they receive for patient care. For potential subjects, clinical trials can represent the only
           opportunity to access medications that might help their medical conditions.

           (b) A political and cultural environment that may not accord sufficient emphasis to individual
           autonomy: Human subject protections are based on the principle of individual autonomy. In
           some environments it can be difficult to ensure the kind of substantive and procedural
           protections regarded as essential in FDA and international research guidelines.

           (c) A limited base of experience in providing human subject protections: The expertise that
           develops with experience in conducting ethical reviews of clinical trials is lacking in areas where
           research has not been conducted extensively. Countries with little experience hosting such trials
           are unlikely to have much of a knowledge base to tap in handling the various aspects of the
           ethical review process.

54. National Bioethics Advisory Commission, Ethical and Policy Issues in International Research:
Clinical Trials in Developing Countries. Chapter 5: “Ensuring the Protection of Research Participants in
International Clinical Trials” April 2001: 82.

55. Ibid.

56. The director of the Fogarty International Center identified bioethics training for researchers in
developing nations a priority initiative for the center when he assumed the center’s leadership in 1999.
The Center awarded grants for training investigators from developing countries to Johns Hopkins
University School of Public Health, Albert Einstein College of Medicine, Harvard School of Public
Health, Case Western Reserve University, and the University of Toronto. The Center awarded
planning grants to University of Cape Town, University of Chile, and University of Pretoria School of
Health Systems. “FIC International Bioethics Grants May Support IRB Improvement,” The Blue
Sheet 43 (October 18, 2000) 42: 15.

57. National Institutes of Health, “New Initiatives to Protect Participants in Gene Therapy Trials,” 7
March 2000. http://www.nih.gov/news/pr/mar2000/od-07.htm, accessed 5/00. FDA requires sponsors of gene


The Globalization of Clinical Trials                   50                                OEI-01-00-00190
                                                                                      APPENDIX E




transfer research to submit their monitoring plans for review prior to conducting research; “FDA
Inspecting All NME Applications for Appropriate Clinical Trial Monitoring,” The Pink Sheet 62
(October 16, 2000) 42: 24. FDA has recently expanded its compliance inspections of sponsor
monitors to include examining all new molecular entity applications to ensure appropriate clinical trial
monitoring.

58. 45 CFR sec. 86.

59. Outcomes of foreign and domestic clinical inspections, in terms of corrective actions, are
comparable (see appendix A). However, FDA officials have stated that they usually detect some
problems when they visit areas of the world where clinical investigators are inexperienced in conducting
research under FDA or International Conference on Harmonization - Good Clinical Practice guidelines.
Each year FDA inspects more countries that it have not previously inspected. One FDA official noted
that when inspectors go into new regions they “usually find some kind of problem there that
recapitulates historically what [they] have seen first in the United States when [they] started in the ‘60's
and then in the European Union in the ‘70's and ‘80's.” That is, clinical investigators experience a
learning curve in properly conducting these trials.         (See D. Lepay, “Ethical Issues in International
                                                            Research: Overview of FDA,” Presentation to
                                                            the National Bioethics Advisory Commission,
                                                            Baltimore, MD, 2 December 1999.

60. World Medical Association, World Medical Association Declaration of Helsinki: Ethical
Principles for Medical Research Involving Human Subjects, adopted by the 18th World Medical
Assembly, Helsinki, Finland, June 1964, and most recently revised October, 2000.
http://www.wma.net/e/policy/17-c_e.html, accessed October, 2000. These guidelines have been revised five
times since their original adoption: in 1975, 1983, 1989, 1996, and 2000.

61. Council for International Organizations of Medical Sciences, International Ethical Guidelines for
Biomedical Research Involving Human Subjects (1993): 9.

62. Ibid., 25.

63. Ibid., 44.

64. International Conference on Harmonization, Consolidated GCP Guideline, finalized May 1996;
in implementation phase. http://www.ifpma.org/ich5e.html#GCP, accessed May, 2000.

65. World Health Organization, Operational Guidelines for Ethics Committees That Review
Biomedical Research, Geneva, 2000.




The Globalization of Clinical Trials                51                                OEI-01-00-00190
